<html>
<title> - [H.A.S.C. No. 113-59] THE DEFENSE DEPARTMENT'S POSTURE FOR SEPTEMBER 11, 2013: WHAT ARE THE LESSONS OF BENGHAZI?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-59]

   THE DEFENSE DEPARTMENT'S POSTURE FOR SEPTEMBER 11, 2013: WHAT ARE
                        THE LESSONS OF BENGHAZI?

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 19, 2013


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                      U.S. GOVERNMENT PRINTING OFFICE

  82-965                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  











              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     MARTHA ROBY, Alabama, Chairman

K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
MO BROOKS, Alabama                   ROBERT E. ANDREWS, New Jersey
WALTER B. JONES, North Carolina      JACKIE SPEIER, California
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
JIM BRIDENSTINE, Oklahoma
             Christopher Bright, Professional Staff Member
                          Paul Lewis, Counsel
                          Arthur Milikh, Clerk











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, September 19, 2013, The Defense Department's Posture 
  for September 11, 2013: What Are the Lessons of Benghazi?......     1

Appendix:

Thursday, September 19, 2013.....................................    21
                              ----------                              

                      THURSDAY, SEPTEMBER 19, 2013
 THE DEFENSE DEPARTMENT'S POSTURE FOR SEPTEMBER 11, 2013: WHAT ARE THE 
                          LESSONS OF BENGHAZI?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Roby, Hon. Martha, a Representative from Alabama, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     3

                               WITNESSES

Reid, Garry, Principal Deputy Assistant Secretary of Defense, 
  Special Operations and Low-Intensity Conflict, Department of 
  Defense........................................................     4
Roberson, Maj Gen Darryl, USAF, Vice Director, Operations (J-3), 
  Department of Defense, Joint Staff.............................     7

                                APPENDIX

Prepared Statements:

    Reid, Garry..................................................    29
    Roby, Hon. Martha............................................    25
    Tsongas, Hon. Niki...........................................    28

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................    37

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]





 THE DEFENSE DEPARTMENT'S POSTURE FOR SEPTEMBER 11, 2013: WHAT ARE THE 
                          LESSONS OF BENGHAZI?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                      Washington, DC, Thursday, September 19, 2013.
    The subcommittee met, pursuant to call, at 4:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Martha Roby 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTHA ROBY, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mrs. Roby. Good afternoon. The subcommittee will come to 
order. Last week we marked a solemn milestone. Last week we 
took solemn note of the 12th anniversary of the September 11, 
2001, terrorist attacks on the United States. This September 11 
also was the first anniversary of the terror strike in 
Benghazi, Libya. That murderous rampage killed four brave 
Americans serving this Nation abroad. In the first months after 
the events in Benghazi, the committee held three classified 
Member briefings, three classified staff briefings, and one 
hearing.
    Chairman McKeon also requested additional written 
information from the Department of Defense. This spring, in an 
effort to direct additional dedicated resources to the 
committee's effort, Chairman McKeon directed the Oversight and 
Investigations Subcommittee to undertake further work on the 
subject.
    In a letter to the Department of Defense, Chairman McKeon 
made it clear that he intended for the Committee on Armed 
Services to address thoroughly, authoritatively, and 
conclusively the Benghazi-related matters within its purview.
    In a May briefing, the subcommittee received classified 
information from today's witnesses about the Department of 
Defense's actions in connection with the Benghazi attack. We 
also learned about constraints on deploying other forces, 
including drones and fighter aircraft. In two subsequent 
briefings, we heard from flag and general officers and field 
grade subordinates who were in Libya at the time or were in 
contact with those who were. We learned about how these 
officers understood the events as they unfolded and the 
operational limitations they faced.
    In order to understand fully the Department of Defense's 
response, it has been necessary for the subcommittee's 
briefings to be held at top secret or higher level. I am 
certain that Members understand this requirement. I also expect 
that they recognize that the committee has worked to allow 
interested Members to hear these briefings firsthand and to 
have access to the classified transcripts.
    As Chairman McKeon has directed, the subcommittee's 
Benghazi oversight is continuing. But based upon the 
information we have collected to date, I don't believe that any 
amount of heroism during the attacks could overcome the tragic 
lack of preparedness leading up to it.
    It does not appear that U.S. military forces, units, 
aircrafts, drones, or specific personnel that could have been 
readily deployed in the course of the attack in Benghazi were 
unduly held back, or told to stand down, or refused permission 
to enter the fight. Rather, we were so badly postured, they 
could not have made a difference or we were desperately needed 
elsewhere.
    I hope to learn in today's hearing that we were far better 
prepared to face a similar attack this September 11, and today, 
than we were a year ago. The subcommittee wants to ensure our 
requirement as members of this subcommittee and as members of 
this committee is to ensure that the Department of Defense has 
learned from Benghazi and is taking steps to minimize the 
chance that a strike like that can be successful again.
    This committee's work on this issue has not been, and will 
not be a political exercise. Majority and minority members 
alike have asked important questions about our preparedness in 
2012, and I expect they will do the same this afternoon.
    Before turning to Representative Tsongas, Ranking Member 
Tsongas, for her opening remarks and my introduction of those, 
again, at the witness table today, let me review how we will 
proceed today. Our witnesses are going to make unclassified 
remarks about DOD's [Department of Defense] posture last week. 
To the extent that they can do so in this environment, they 
will describe generally how our forces continue to be deployed. 
They will also discuss what changes have come about as a result 
of the lessons learned in 2012.
    Immediately after we adjourn, and my understanding is that 
now votes will not be called until later, so I think we have 
roughly an hour, hour and 45 to maybe even 2 hours before votes 
are called, so at some point, when we have exhausted this open, 
unclassified briefing, then we will move up to room 2337. And 
at that time, our witnesses will brief us on classified 
specifics that cannot be discussed now. And I caution Members, 
please, to raise only unclassified general topics in this room, 
and to hold off to the classified questions for our later 
session. And obviously, you, our witnesses, will direct us in 
the event that it is a question that needs to wait until the 
later briefing. We are also today joined by committee members 
who do not sit on the subcommittee but sit on the full Armed 
Services Committee. And therefore, I ask unanimous consent that 
nonsubcommittee members be allowed to participate in today's 
hearing after all subcommittee members have had an opportunity 
to ask questions.
    Is there objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    Before I go to you, Ranking Member Tsongas, our chairman, 
Mr. McKeon, is here, and so we will ask him if he has any 
opening comments.
    The Chairman. No.
    Mrs. Roby. Okay. Now I will invite my distinguished ranking 
member to make her opening remarks.
    [The prepared statement of Mrs. Roby can be found in the 
Appendix on page 25.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Tsongas. Thank you, Madam Chair.
    And thank you all for being here today. We have heard from 
you before, and in a classified setting, and we look forward to 
hearing you again today. And I thank you for all that we have 
been able to learn from you.
    The tragedy that took place in Benghazi on September 11, 
2012, shocked and saddened the Nation. And that is what has 
prompted this deep investigation of the circumstances. And we 
are reminded, with the tragic shooting at DC's Navy Yard, just 
how vulnerable those who serve our Nation might be, and yet 
again how vigilant we must be. Since the tragedy in Benghazi, 
the State Department, DOD, and Congress have worked to figure 
out what went wrong in an effort to make sure that such a 
tragedy never happens again.
    The State Department's Accountability Review Board released 
an unclassified version of their findings. Many issues were 
addressed, and new measures have been put in place. And that 
was a primary focus on the State Department. Today, we will 
hear what the DOD has done to make sure that they are postured 
to immediately respond to threats and/or attacks involving our 
diplomatic facilities around the world. I look forward to your 
testimony. Thank you. And I yield back.
    [The prepared statement of Ms. Tsongas can be found in the 
Appendix on page 28.]
    Mrs. Roby. Thank you, Representative Tsongas.
    Today we are joined again by Mr. Garry Reid, who is the 
Principal Deputy Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict, and the principal 
adviser to the Assistant Secretary of Defense for Special 
Operations/Low-Intensity Conflict. He joined the Office of the 
Secretary of Defense after 28 years of military service in 
Special Operations.
    Major General Darryl Roberson is the vice director for 
operations on the Joint Staff. Among his other military 
accomplishments, General Roberson is an Air Force Command 
fighter pilot with more than 865 combat hours.
    Mr. Reid will give this afternoon's statement. He and 
General Roberson will both respond to Members' questions.
    Mr. Reid, please proceed.

 STATEMENT OF GARRY REID, PRINCIPAL DEPUTY ASSISTANT SECRETARY 
  OF DEFENSE, SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT, 
                     DEPARTMENT OF DEFENSE

    Mr. Reid. Chairman Roby, Ranking Member Tsongas, and 
members of the committee, thank you for your continued interest 
in our overseas posture and matters related to the tragic 
events of last year. And thank you for the opportunity for 
allowing us to come over today and talk about where we are on 
these topics. As the chairman mentioned, a year ago, our 
government facilities in North Africa and the Middle East came 
under attack. These attacks took place in a region that was 
being swept up by revolutions and widespread social upheaval. 
In Cairo and Tunis, protesters breached the grounds of our 
embassies. In Sana'a and Khartoum, the protests escalated into 
attacks, which led to damage to our missions. And finally, as 
you know, a terrorist attack on our facilities in Benghazi, 
Libya, resulted in the tragic deaths of four brave Americans.
    These events are dramatic examples of the threats and 
challenges our personnel overseas currently face. The pressure 
exerted by the United States and its partners has isolated the 
core of Al Qaeda. As the President has said, the remaining 
operatives in the Al Qaeda core spend more time thinking about 
their own safety than plotting against us.
    But we now confront a threat from diversified groups, some 
affiliated with Al Qaeda and others not. The most well known of 
the affiliated groups is Al Qaeda in the Arabian Peninsula, 
which continues to plot against the United States. But 
increasingly, new groups of loosely affiliated extremists have 
emerged. The upheaval in North Africa and the Middle East has 
contributed to a permissive environment for such extremist 
networks.
    Unlike Al Qaeda core in Afghanistan and Pakistan or Al 
Qaeda in the Arabian Peninsula, these groups are mostly focused 
on the countries and regions where they are based. They work 
together through existing familial and tribal networks, and 
focus on acting locally, as we saw in Benghazi, and at the 
British Petroleum oil facility in Algeria. And as we strive to 
work with our partners in the region, we see that political 
changes ushered in by the Arab Spring present challenges as 
well. Although many of the governments in the region are 
friendly to our interests, they struggle to exert a monopoly of 
force within their own borders.
    So although host nations are bound by international law to 
protect our diplomatic personnel, we must recognize their 
capability shortfalls and work to offset them. In this 
environment, the Department of Defense is working hard with our 
interagency partners to ensure our military resources are best 
positioned to help protect U.S. personnel and facilities 
abroad.
    The year since the attacks against our facility in Benghazi 
has been characterized by unprecedented cooperation between the 
Departments of State and Defense. From Secretaries Hagel and 
Kerry, down to the staffs on both sides of the river, we are in 
regular, open communication. The National Security Staff 
convenes weekly reviews of threat streams and security measures 
to identify hot spots, anticipate crises, and synchronize our 
proactive, preventative, and contingency response planning 
efforts. Our colleagues in the Intelligence Community provide 
daily reporting of threat indicators and warnings. And our 
combatant commanders and chiefs of mission are in regular 
contact to assess threats and discuss contingency plans.
    This improved interagency planning allows us to reinforce 
the efforts of host governments, which under the Vienna 
Convention on Diplomatic Relations, have the lead for overall 
protection of our diplomats. This leads to a broader point. We 
believe a proactive approach is the best way to protect our 
staffs and our facilities overseas. Because once we are in a 
rescue situation, the chances of a positive outcome for both 
our diplomats and our military forces attempting to rescue them 
are already reduced.
    To this end, much of our work over the last year has been 
to place an emphasis on acting before the crisis. One of the 
most visible measures of security at U.S. diplomatic posts is 
the Marine Security Guard detachment. We appreciate Congress' 
expansion of the Marine Security Guard program in the National 
Defense Authorization Act for 2013, which allowed us to add up 
to 1,000 Marines into this valuable program.
    This increase in personnel underpins a broader expansion of 
Marine Security Guards. We are raising the minimum size of 
existing Marine Security Guard detachments at high-threat, 
high-risk posts from 7 to 13. These increases have already 
begun, and will be complete next month.
    We are fielding 35 new Marine Security Guard detachments to 
posts that do not currently have them. Three of those 
detachments have already deployed; seven more will be in the 
field by the end of this year; and we aim to have the remainder 
of them fielded by the end of 2014.
    The United States Marine Corps has established the Marine 
Security Augmentation Unit in Quantico, Virginia, which will be 
able to provide Marine Security Guards on short notice at the 
requests of chiefs of mission. These Marines are drawn from 
combat units and have extra training in close quarters battle, 
trauma, weapons, and tactics. Six squads will be available by 
the end of this year, and we have already seen the benefit of 
this approach. At the request of the Department of State, 
Marines from these units were sent to eight posts in advance of 
the September 11 anniversary last week.
    As we have grown the Marine Security Guard program, we have 
also enhanced their ability to protect U.S. facilities and 
citizens. For instance, in July of this year, the Department of 
State and the U.S. Marine Corps amended the mission of the 
Marine Security Guards to elevate the protection of people and 
facilities to be a co-equal priority with the protection of 
classified information. Just a few weeks ago, the Department of 
State also approved the use of additional crowd control weapons 
for Marine Security Guards.
    Both of these changes, when combined with the expansion of 
the program, reduce risks to our citizens and facilities where 
Marine Security Guards are deployed. At some posts, we need a 
higher level of security. At many high-risk posts, the 
Department of State is hardening the facilities or is 
increasing the numbers of security personnel at the post. The 
Department of State is using lessons learned to improve 
physical security and assess the best methods of providing that 
security for the Department to conduct U.S. foreign policy 
objectives. Facility security is focused on delaying mobs and 
small group attacks, with a tiered defense of physical barriers 
and protection against bomb-laden vehicles with perimeter anti-
ram barriers, crowd access controls, and setback distance.
    In places where the threat is high and the host nation's 
capacity is low or our facility is vulnerable, the Department 
of Defense can be a bridging solution by either providing 
temporary forces at post or by enhancing the posture of nearby 
response forces and assets until those risks are brought to a 
more manageable level by permanent solutions. Security 
augmentation forces, DOD security augmentation forces, provide 
the ambassador with a robust security capability. And we know 
the presence of a larger force can be a deterrent to those 
considering an attack against the facility.
    In some cases, when a decision is made to reduce embassy 
staff due to heightened threats, DOD can also assist with 
airlift and other transportation in support of a noncombatant 
evacuation. We will discuss the details of how we have done 
this more recently in the closed session. In those countries 
where we have willing but less capable host nation security 
forces, the administration is investing in building the 
capacity of host nation forces, who are required under 
international law to be our first line of defense. Although we 
understand that we cannot be solely dependent on our partners 
for security, we must encourage and, where appropriate, help 
them live up to their responsibilities. Through the use of 
available Department of Defense authorities, such as section 
1206 Global Train and Equip and the Global Security Contingency 
Fund, we will continue to build the capacity of partner forces 
in the Middle East and North Africa. These and other efforts 
that allow direct military-to-military engagement provide an 
opportunity to improve their overall ability to respond to 
threats against our shared interests, as well as build 
relationships with their security forces that can be invaluable 
in a crisis.
    Lastly, as Major General Roberson will explain in greater 
detail during the closed session, I want to underscore that we 
are more ready than ever to respond to a crisis or attack if 
one occurs without warning. In addition to realigning our 
forces around the globe, we have made joint planning between 
combatant commanders and chiefs of mission at high-threat, 
high-risk posts a priority task. As a consequence of these 
efforts, the combatant commands now have a better understanding 
of the threats and expectations at diplomatic posts. In turn, 
the chiefs of mission at these posts now have our best estimate 
of response times to inform their decisions about adjustments 
to staff presence in times of increased security threats. The 
President has made clear that we must mitigate risk to our 
personnel and facilities with preventive, proactive security 
steps and contingency response plans.
    Although we cannot eliminate the risks completely in all 
cases, I believe we have made significant progress over the 
last year toward getting the right balance between our needs to 
deploy personnel into these dangerous areas around the world to 
advance our security interests, and the risks to U.S. personnel 
and facilities inherent with those deployments. We are taking 
prudent steps to reduce the vulnerability of people and 
facilities abroad, while not turning our embassies into 
fortresses and degrading our diplomats' ability to do the 
critical work that benefits us all.
    Madam Chairman, I thank you again for the invitation to be 
before you and discuss these important subjects. I am happy to 
respond to any questions you or members of the subcommittee may 
have. Thank you.
    [The prepared statement of Mr. Reid can be found in the 
Appendix on page 29.]
    Mrs. Roby. Thank you.
    General Roberson.

  STATEMENT OF MAJ GEN DARRYL ROBERSON, USAF, VICE DIRECTOR, 
      OPERATIONS (J-3), DEPARTMENT OF DEFENSE, JOINT STAFF

    General Roberson. Madam Chairman Roby, Ranking Member 
Tsongas, and members of the committee, it is my honor to be 
here today.
    I don't need to repeat what Mr. Reid has already said, so I 
would just like to highlight three main points and then open it 
up for questions.
    First of all, our force posture today is better suited to 
what we call the new normal. We have added several entities to 
the list of alert forces, and the Marines have really moved out 
on this, bringing additional capabilities and strengthening 
their longstanding relationship with the State Department. We 
have deployed key response forces abroad and aligned lift to 
those forces. This has allowed DOD to adjust the location of 
these response forces, as required or needed, and to reduce 
their response times. And I will be happy to elaborate on these 
forces during our classified session following this hearing.
    The second point I would like to make is that the 
cooperation and the progress with the State Department and the 
whole interagency has truly been significant over the past 
year. Weekly meetings and sometimes daily phone calls have 
allowed us to synchronize our efforts. And the latest response 
to the Yemen threat just recently in the last few weeks is a 
great example that I would once again like to elaborate on 
during our classified session.
    Finally, we have shifted our focus from simply reacting to 
crises to proactively addressing potential crises. Through 
better intelligence sharing, engaging our partners, helping to 
develop host nation capacity, and augmenting our diplomatic 
facilities with DOD security professionals ahead of a crisis, 
we have placed greater emphasis on getting in front of the 
attack.
    Madam Chairman, thank you for the opportunity to discuss 
our progress, and we look forward to your questions.
    Mrs. Roby. Thank you, sir.
    And let me just begin, as I don't want to miss the 
opportunity to tell you both thank you again for your service 
to our country. And on behalf of my family, thank you to your 
families who support you and are also serving our country.
    And I want to start with, assuming that the changes that 
you outlined today had been in place on September 1 or even 
September 10 of 2012, would the U.S. preparation for and the 
response to the Benghazi attack differed?
    Mr. Reid. Let me make sure I understood. You said, were 
these current situations in place a year ago, would the 
response have been different? Is that the question?
    Mrs. Roby. Right. So all the changes that you have made in 
preparedness, lessons learned, if those had been in place 
today, would the response have been different in 2012?
    Mr. Reid. Yes. The capabilities in place now and in place 
on the alert status that we had them last week, modulated to 
the very highest level, would significantly have increased and 
improved our response capability. Yes.
    Mrs. Roby. In building on that, would a different or more 
robust mix of forces been available to the Department of 
Defense once the attack commenced?
    Mr. Reid. Again, yes. And we can talk the details and lay 
out for you precisely which types of forces and which positions 
we have arrayed to address that question.
    Mrs. Roby. And could the forces have responded faster?
    Mr. Reid. And again, yes. And I would just point out that 
in this session, we can say that we have modulated--we modulate 
this with the indicators and warnings and the threats. And you 
can look back over the past several months, and multiple 
instances where we take this force to a higher response 
posture, quicker response posture. Keep in mind, when you talk 
about an alert response force and you say, you, force 
commander, detachment commander, your force must be able to get 
on this airplane and be in the air in 1 hour, or 2 hours, I 
would say anything up to 4 hours, that is all you can do if you 
are that person, if you are that element. You cannot go very 
far from that position. You are basically sitting on an 
airfield, and the air crew, same thing, accentuated even more 
because they have to keep the aircraft ready.
    So when you take a force and you say I want to be in the 
air in 4 hours, that is a rapid response. And I think it is 
hard for folks to imagine, because we are used to 911, and 
police and fire. But that is not the same thing. So getting 
that force on that posture, when we put them say at 1 hour 
alert time, we have to do that in a way that we can manage the 
time that that takes. Because if you want that over a long 
period of time, then you have to have multiple sets of that 
force that can cycle through. And, you know, on a week by week 
or month by month basis. Then you have to start thinking about 
training and readiness. Because, again, you can go no further 
than you can be back and be on that aircraft in that time 
frame. In many cases, now you have to say, well, what if I want 
this force to go out and do rehearsals? What if I want them to 
go to the rifle range?
    Mrs. Roby. Right.
    Mr. Reid. So it is a compounded effort.
    Mrs. Roby. Of the changes that you discussed here today, is 
there one or two that is of most significance that you would 
like to highlight again? I mean, I know you pointed out a long 
list of changes, but can we drill down and talk about one or 
two that are of most significance?
    Mr. Reid. The two I would highlight would be putting 
tailored response forces in closer proximity to the area of 
most anticipated need, and dedicating airlift to those assets 
is, one, highly significant. I would point out, though, just to 
keep the balance here between sort of proactive and reactive, 
because I always want to bring this back to what we can do 
ahead of things, the growth of the Marines and expanding the 
size of these detachments and refocusing them, because this is 
really the more on-the-scene asset for areas--again, we are 
talking about Africa, the distance from southern Europe to 
Mali----
    Mrs. Roby. And in 2012, is it a fair assessment that we 
were only postured to be reactive, and now these changes allow 
for us to be proactive? Is that a fair statement?
    Mr. Reid. But keep in mind, we had Marines at embassies for 
decades. So we weren't totally reactive.
    Mrs. Roby. But as it related to this attack in Benghazi, it 
was reactive, rather than proactive, and the changes and the 
lessons learned are we are now postured to be proactive.
    Mr. Reid. Yes, Madam Chair. And again, also remember two 
things. Augmenting ahead of a crisis in some areas where the 
threat is not perceived to be imminent or the facility is more 
hardened, adding a smaller force there is substantial. In other 
places, and we can talk the details, that are very dangerous 
areas, putting additional forces in there now proactively 
beyond the capability of Marine Security Guards, I am talking 
about security augmentation forces of significant numbers, 
again, that is something we had in some places before the 
attacks of last year.
    Mrs. Roby. Right.
    Mr. Reid. But we have added more of those in the area of 
this interest as well.
    Mrs. Roby. Okay. My time has way expired. So thank you.
    Ranking Member Tsongas.
    Ms. Tsongas. Thank you. You have described a sort of DOD to 
State Department regularized process by which you sort of 
assess what the threats are out there. Can you describe sort of 
the structure of it? Where does it reside? How is it 
implemented? Just to have a sense of sort of how embedded it is 
in both institutions. I am sorry we don't have the State 
Department here. It is not our purview. But because it is so 
co-dependent, really, I would like to hear how this has been 
structured so that it takes place as it should.
    Mr. Reid. The linkage, the interagency linkage is provided 
in this example by the National Security Staff. And within that 
structure, we have groups that are focused full time on 
counterterrorism, we have groups that are focused on regional 
issues, and we have another group that is focused on strategic 
issues. What we have done in this past year is bring those for 
the purpose of this threat into a common forum, chaired at a 
very senior level, with participation at a senior level within 
our Department at the deputies level. And as the general 
mentioned, in that context once a week. The other lower level 
is a daily interaction. But that is where it comes together.
    Separately, though, we have direct relations with our 
colleagues in Diplomatic Security, Assistant Secretary Starr, I 
believe, who has had a hearing today, Greg Starr is one of our 
constant colleagues. Deputy Assistant Secretary Bill Miller, 
which is a position created after the Benghazi attack, is the 
deputy assistant secretary for security at high-threat posts. 
We are in very regular contact. And some of the folks that are 
here with us today at the action officer level also established 
these counterpart relationships that are much more robust. The 
access was always there, but the focus, the intensity, the 
repetition and the levels at which we do it has been increased 
significantly over the past year.
    Ms. Tsongas. Would you say the State Department could 
report a similar sort of structure change so that they have the 
same feeling that this information is flowing back and forth as 
you are describing from the DOD's point of view?
    Mr. Reid. I know this. And at, at least, our weekly 
meetings, but I do know it happens more often, but at our 
weekly meetings, all threats are reviewed. Again, these types--
there are broad threats everywhere, but this diplomatic 
security threat in particular, all threats are briefed, all 
agencies, not just us and the Department of State, all agencies 
are asked, are there any threats that you know about that 
weren't mentioned, or are there any threats you just heard 
about for the first time? And do we need to elaborate? That is 
one. And the second part of that is, is everybody getting the 
support and cooperation from the other agencies? The question 
posed back to us, have we responded to all requests for 
security? And it is posed back to Secretary Starr and Under 
Secretary Kennedy in this context.
    You know, are all your requests of DOD being met? And that 
is done at the deputies level every week. But again, we do it 
every day at a lower level. So I do firmly believe that we 
would all have the same answer to this question, because we are 
in the same room frequently.
    Ms. Tsongas. And if there is a disagreement between the two 
Departments, what is the dispute resolution mechanism, knowing 
that timing is very important?
    Mr. Reid. Well, we work problems at the lowest level. We 
are already operating at a very senior level. So I can't off 
the top of my head think of a dispute we could not have 
resolved. But as I mentioned, Secretary Kerry and Secretary 
Hagel have met separately; they have met on this topic. And 
they have met with the President on this topic. So, you know, 
there is no pending disputes. But again, our focus----
    Ms. Tsongas. There are cultures, though, there are cultures 
within the two Departments that may merit sort of different 
approaches to things.
    General Roberson. Ma'am, I would just say that over the 
past year, you know, we have gotten this down better than we 
have ever in the past. And I would say that right now, it is as 
good as it can be. And we continue to expect that that will be 
the case for the future. So every day, we have people very 
dedicated to the high-threat, high-risk areas, as well as 
around the world. And we routinely coordinate. I mean, I pick 
up the phone weekly, if not daily, with folks over at the State 
Department.
    Ms. Tsongas. Thank you.
    I yield back.
    Mrs. Roby. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair.
    I have just got a couple of questions before we move to the 
next area. But do you believe, Mr. Reid, I just ask you this, 
do you believe that the ambassador was the target or do you 
believe the special mission was the target?
    Mr. Reid. I believe the United States was the target, the 
facilities representing the interests of the United States for 
this attack. I am assuming you are talking about the attack on 
Benghazi. I believe the United States presence was the target, 
but my own personal view.
    Mr. Scott. General, do you believe that the ambassador was 
the target, or do you believe the mission was the target?
    General Roberson. Sir, I believe that there were many 
people in Libya that truly loved the ambassador.
    Mr. Scott. The ambassador had not been to that facility in 
approximately a year, if I am reading the reports right. Is 
that correct? When was the last time----
    Mr. Reid. I am not aware of the details of his travel.
    General Roberson. Yes, sir. Same here. I mean, the State 
Department could answer that.
    Mr. Scott. Okay. Madam Chair, I guess with one last 
question. What about the human intelligence on the ground in 
these other countries? Have we been able to--I know, obviously, 
we have got a lot of technology, and we can pick up on a lot of 
things through technology. What about our human intelligence 
capabilities? Can you speak to that?
    Mr. Reid. I can speak in general here and in more detail 
later. I would say that when we talk about building capacity in 
these countries oriented on these threats, expanding 
intelligence capacity of our own and of our partners is an 
element of that.
    Mr. Scott. I will tell you, I think the ambassador was the 
target. I think it was an outright assassination. I don't think 
these guys just got that lucky and got--and hit the special 
mission when the ambassador happened to be there.
    Madam Chair, I will yield the remainder of my time and look 
forward to the next.
    Mrs. Roby. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Madam Chair.
    And I would like to take a moment to thank you for your 
leadership in this hearing and focusing it on lessons learned 
and what we can do better for our brave Americans who serve all 
around the world, both in the State Department and in the 
Department of Defense.
    Gentlemen, I had another Benghazi hearing just today 
actually, earlier today, and one of the things that came to 
light was the fact that the State Department does not have as 
much experience in doing risk assessments to the level that 
those in the military does. You know, even the frontline 
leader, the buck sergeant, knows how to do a risk assessment 
and a risk mitigation.
    Similarly, General, with aviators, this is in your blood. 
You do this before every single mission, throughout the 
mission. One of the things that I am hearing is that the State 
Department did not do a good risk assessment in deciding to 
continue to be in Benghazi. I wonder, with the greater 
coordination between the Department of Defense and the State 
Department, if you could talk a little bit more about the 
interagency coordination process between DOD and the Department 
of State, and perhaps to some of the lessons learned such as 
the risk assessment. Have you been able to sort of share some 
of that knowledge, some of that experience with the folks in 
the Department of State?
    Mr. Reid. Absolutely. My own military background, 
experience, I worked quite a bit with Diplomatic Security in 
the context of embassy security. And I would first say that I 
take your point about the general military planning and 
assessment process. I think we have got that way over-optimized 
as a cultural item. But on the other hand, assessing risk in 
terms of physical risk and mitigation measures for a forward-
operating base or a fire base is different than doing it for a 
diplomatic facility. And I think there is an art and science 
that Diplomatic Security colleagues are much more skilled and 
capable of applying in that context than we would be. But in 
the middle of that, and folks that we do provide them to help 
with these assessments, we have interagency assessment teams. 
Right after the attacks of last year, we sent DOD special 
operators out with Diplomatic Security assessment teams to 19 
diplomatic locations in the areas of the greatest risk to do an 
immediate interagency security assessment. That is something we 
have always done within the combatant commands.
    The combatant commands provide survey teams to diplomatic 
posts in their area. Every Department of State emergency action 
plan includes a military annex, where we contribute our own 
assessments into that process. So we have always been joined in 
that effort. And I think the collaboration where we have gone 
in the last year is now at an even higher level. We have tasked 
all the combatant commands to go to every embassy and every 
chief of mission and dissect that scenario, look at the 
facility.
    You have heard, I am sure, from our State colleagues of the 
variances in the facilities and the level of construction. And 
we have gone to detail in every one of those and matched that 
with our military capability and our military footprint in 
these areas of operation. This is all the commands, not just 
AFRICOM [Africa Command]. And where we have to factor in 
distance and factor in lack of basing, and balance that against 
the threat, and really do a cooperative assessment so we have a 
common understanding. And within all of that these assessments 
and this sharing of how we look at the problem, it happens at 
every level up the chain to close whatever gap there may be 
that you are referring to in mind-set or in approach to 
assessing risk.
    Ms. Duckworth. Thank you. General.
    General Roberson. Ma'am, I would just add one point and 
reemphasize another. The first point is many of the State 
Department's personnel that are in this business of risk 
assessment are prior military. So they have that background in 
many ways as well. And then I would just reconfirm what Mr. 
Reid has said, in that the State Department has expertise, and 
they are good at this, too. And we help, whenever they ask, to 
make these assessments.
    Ms. Duckworth. Thank you, gentlemen.
    I yield back my time.
    Mrs. Roby. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Madam Chairman.
    Just had a couple of questions for the major general. I 
guess my question is, are you aware of any requirement to have 
a carrier presence in the Mediterranean and what that 
requirement might be?
    General Roberson. Sir, I am very aware of that. 
Unfortunately, I can't talk about it in this forum, but I would 
be happy to share that with you in the classified session 
following this.
    Mr. Bridenstine. Okay. Regarding the host nation in this 
case, it seemed like the host nation was wholly inadequate at 
providing security for our diplomats. Would you agree with that 
assessment?
    General Roberson. Sir, in this case, in the Libya case for 
Benghazi, yes.
    Mr. Bridenstine. In these cases, and certainly there are 
other cases around the world, is it your assessment that we are 
currently postured with American forces to provide that 
security when the host nation can't provide it?
    General Roberson. Sir, what I would say is this is part of 
the new normal that I was referring to in the opening 
statement. And what has happened is even though countries, some 
countries that are a part of this Arab Spring are willing and 
want to do this protection of embassy personnel for all of the 
countries there, they are physically incapable or the capacity 
doesn't exist. So especially where those circumstances exist, 
we are working very hard to try to increase the capacity of the 
host nations.
    Mr. Bridenstine. So, apart from just increasing the 
capacity, which is going to take time, and of course between 
now and then there is a gap, are we currently postured for the 
protection of those embassies?
    General Roberson. And the way that I would answer that, 
sir, is the protection of the embassy as a whole is a layered 
defense posture. So we work on multiple layers. And again, the 
State Department has primary responsibility for putting that 
layered defense together. DOD plays a very specific role in 
capabilities. We add to that as State Department asks for us. 
But where we have an identified gap, we are working with the 
State Department, and DOD is helping to shore those gaps up.
    Mr. Bridenstine. So that there are currently gaps. And I 
guess my next question is where those gaps exist, is there a 
response that would withdraw our diplomatic folks in those 
areas where those gaps exist?
    General Roberson. Absolutely, sir. And we have seen recent 
cases of this. We withdrew personnel out of Beirut just 
recently due to the circumstances. And in the classified brief, 
I would like to speak to what we did in Sana'a in Yemen 
regarding this kind of situation as well. So very definitely, 
based on the circumstances and the situation, the indications 
and warning, the threats that we are facing, we all collaborate 
together to make a determination on the best way to proceed. 
And one of the pre-bang activities that we look for is 
evacuating the embassy.
    Mr. Bridenstine. So, in an unclassified setting, obviously, 
we can't talk about what the carrier requirement might be in 
the Mediterranean; can you say if we were adhering to whatever 
requirement there might be?
    General Roberson. Definitely, sir.
    Mr. Bridenstine. We were adhering to that? Is that correct?
    General Roberson. Are we now?
    Mr. Bridenstine. No, were we at that time adhering to the 
requirement for the carrier presence in the Mediterranean, 
whatever that requirement might be?
    General Roberson. Sir, I am not exactly sure why you are 
referencing the carrier presence. And again, I would be happy 
to discuss this in the classified environment for, you know, 
Benghazi of last year. I will just say that we were postured as 
we thought was appropriate, and we were meeting all 
requirements at the time that Benghazi happened.
    Mr. Bridenstine. Roger that. Thank you.
    Mrs. Roby. Ms. Speier.
    Ms. Speier. Thank you, Madam Chair.
    And thank you both for participating today. There was 
another committee hearing on Benghazi today. We were in 
Oversight and Government Reform for 6 hours. And there was an 
interesting point that was raised that--and forgive me if it 
has already been addressed here--but of the 240 embassies we 
have around the world, about a third of them are in a similar 
vulnerable setting as was Benghazi, where they are interim 
missions. They are not full-out embassies, and that we could 
potentially have similar issues in about a third of these 
sites. Can you comment on that?
    Mr. Reid. I would comment on how--where we fit in on the 
Defense side and how this contributes to the greater effort, 
and acknowledging your point, Madam, that all facilities are 
not created equally as a matter of construction standards and a 
matter of infrastructure and a matter of host nation and the 
physical environment. We absolutely agree with that. What we 
have done in our cooperative assessments with chiefs of mission 
and with State colleagues back here in Washington is look at 
each one of these and participate in a dialogue about what 
could be done, what ought to be done, what should be done.
    Ms. Speier. So you are alerted to the fact that about a 
third of these facilities are inadequate in terms of security.
    Mr. Reid. We have a post-by-post listing of what type--
there is three general construction standards. And we have that 
breakdown and we know which posts are of which construction. We 
share that with State colleagues. Absolutely.
    Ms. Speier. All right. So Admiral Mullen said to General 
Ham that he was inclined to extend the Security Support Team 
mission, and Ambassador Stevens wanted that mission extended 
for both security and training purposes, but the State 
Department official said, quote, ``Didn't want to be 
embarrassed by having DOD continue to provide security,'' 
unquote. Now, have we gotten to the point where we have 
addressed someone in State Department's purview that is 
reluctant to rely on DOD support because it doesn't feel right 
or--I was just very troubled by that comment.
    Mr. Reid. I am not a firsthand witness to the conversation, 
but I have read some of the documents pertinent to the security 
team in Tripoli. And my understanding is that the ambassador 
was transitioning from a DOD security element to an element 
comprised of Diplomatic Security agents.
    Ms. Speier. No, I understand that. But State was kind of 
driving the train here and basically wanted to shift from DOD 
to State Department security, I guess. And I am wondering if 
DOD can trump State if they believe that the security risk is 
great.
    Mr. Reid. I would--a bit hypothetical, but I am very 
confident that right now, if we had a conversation in these 
interagency and these security meetings that I referred to 
earlier, and as I said, the dialogue is, is everyone aware of 
the threats? Is everyone comfortable with the solutions? That 
conversation would definitely take place today. I can't speak 
for exactly what conversations took place at the Department of 
State a year ago. But I would also, again, though, underscore 
that our team in Tripoli was a temporary solution that was sent 
there to help get that facility back up and running, and to 
allow the State Department to transition to Diplomatic 
Security. That is exactly what the plan was. And as I 
understand it, that is the plan the ambassador was executing. 
It wasn't a refusal, or as you mentioned--and I can't speak to 
the quote you are offering from someone else about was it 
stubbornness or whatever. From our view, it was always part of 
the plan.
    Ms. Speier. One military official was quoted in the press 
saying that DOD has shifted from being reactive to anticipating 
and being more proactive against the crisis. Based on what you 
are saying, you would concur with that.
    Mr. Reid. If you are referring to events over the past 12 
months of how we are approaching this problem, ma'am, yes, 
absolutely. A proactive approach is our best preferred 
recommended approach because, again, we are trying to temper 
expectations that we, I think as then-Secretary Panetta 
mentioned in his testimony, we are not the fire station down on 
the corner.
    Ms. Speier. One last question. Part of the response to 
Benghazi is to improve intelligence collection. How much 
progress has the Department made in hiring Arabic speakers and 
others that would improve our human intelligence capabilities?
    Mr. Reid. Ma'am, I don't--I am not aware of the details of 
that, but I would be happy to take that for the record and get 
you an answer from the Department.
    Ms. Speier. Thank you.
    [The information referred to can be found in the Appendix 
on page 37.]
    Mrs. Roby. The gentlelady's time has expired.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Madam Chair.
    General, this may be somewhat repetitive, but I just want 
to try to understand. So a Benghazi-like incident starts to 
occur in country X today, who makes the decision to put 
response forces on a heightened alert?
    General Roberson. Sir, the way that that process works 
right now is if we have indications and warning of any type 
beforehand, then we will adapt our forces based on that 
information. So we will start doing the proactive front side 
before the bang kind of measures. So we use that indications 
and warning. We will start to either augment the facility with 
extra forces. We will draw down the embassy, and this is all in 
coordination with the interagency. So the answer to your 
question of who makes it is the situation is discussed in this 
environment that we talked about collaboratively, and we make 
the decision together.
    Mr. Thornberry. I am really talking about the response 
forces. Is it the combatant command or the Joint Staff that 
says, okay, there may be a problem here, we need to put these 
particular forces on a heightened alert?
    General Roberson. Yes, sir. The response forces are under 
the command of the combatant commander.
    Mr. Thornberry. Okay. And so something starts to happen. 
Then who decides whether to send those forces into a particular 
situation? Can the combatant commander--particularly, if there 
is an embassy under attack, is it the combatant commander on 
his own? Can he only send those forces in response to a request 
from the State Department or some other government agency? How 
does that work exactly?
    General Roberson. Sir, I would say that it depends on the 
circumstances and the situation. The commander will, you know, 
depending on the situation, again, when we get indications that 
we need to move forces, if we are going to go into another 
country, then we have to elevate that level of decision all the 
way up to the President.
    Mr. Thornberry. So the President would have to--Benghazi 
happens again. Just like it, you know, essentially, except it 
happens today, and the President would have to decide to send 
some military forces into Libya, into Benghazi to assist or to 
evacuate Americans?
    Mr. Reid. The approval authority for the military operation 
rests with the President. That is correct. We can provide ahead 
of time a framework for--accelerate that in real time. And as 
you are aware, the President can make a decision and then 
delegate the timing of that to the Secretary or the combatant 
commander. All of this in this example would be initiated by 
the chief of mission in the first instance. And this process we 
put in place leans as far forward into that as we can. And as 
you are aware, there are other factors dealing with host nation 
and these other dynamics because, again, the first effort on 
the ground, if anything is starting to happen, is to get the 
host nation on the scene as well. So there is parallel 
dialogue.
    But to the root of your question, launching a military 
operation into a sovereign country is a decision the President 
makes.
    Mr. Thornberry. Okay. Thank you.
    I yield back.
    Mrs. Roby. Mr. Nugent.
    Mr. Nugent. Thank you, Madam Chair.
    And I appreciate our panel today. I think the question 
keeps coming back, though, is: does DOD have the ability to 
supersede State Department when there is a specific threat to 
an embassy or, like, in Benghazi, to that outpost? Do we have 
the ability, does DOD have the ability to supersede and say, it 
is just not safe to have our people here?
    Mr. Reid. Our people being all Americans? You are not 
referring just to the DOD people?
    Mr. Nugent. Because typically we will have a small presence 
of DOD personnel there. So those personnel are at risk just 
like Department of State personnel. But DOD's responsibility, 
obviously, should primarily be to its personnel. And if they 
are put in a position because of a decision by the ambassador, 
does DOD have the ability to overrule that?
    Mr. Reid. If I could take that in two parts. Clearly, the 
Secretary has the authority to move DOD people out of a 
situation. That would be an extreme example, but he certainly 
has that ability. To the question of should we do something 
different in a country, I mean, the chief of mission is the 
President's representative in that country. The engine of this 
dialogue and decision originates with the chief of mission. In 
our collaborative forum that we have, if at any level a Defense 
representative sees a risk or an unaddressed problem, we have 
the ability to raise that successively up through the chain as 
high as it would need to go. But I wouldn't put that in the 
context of an overriding the chief of mission. I mean, the 
chief of mission is the President's representative.
    Mr. Nugent. It just seems that when you task DOD with a 
security detail, that, at some point in time, DOD, while I 
respect the ambassador's position and chief of mission and all 
that, they don't necessarily have the same experience as 
whoever you have in charge at a local mission, or at least the 
DOD representative that may have a little more experience in 
regards to, hey, listen, we can't defend this compound because 
of just the physical layout with the number of personnel that 
we have.
    Mr. Reid. Again, I fully believe we have a dialogue 
process. And that has been unfolded in hearings on this with 
the site security team leaders and the SOC [Special Operations 
Command] Africa representatives that came here. And I think 
what you heard is they had a dialogue with the charge or the 
chief of mission, they worked collaboratively, but they were 
also connected to their military headquarters. So it isn't one 
or the other. We are there are in support of the chief of 
mission. There is a military chain of command that exists 
through Title 10. The chief of mission isn't necessarily an 
element of that chain of command. But we put forces out there 
in support of that chief of mission, and we have agreements, 
and we have a resolution process to bring up anything that may 
rise to the level of a disagreement.
    Mr. Nugent. And I guess this is where the American public 
is somewhat confused in regards to the role of DOD, 
particularly at security of missions. And I am glad to hear 
that there is an expanded role for the Marines as they relate, 
because we were told, you know, last time they are basically 
there to protect documents and destroy documents, not in 
protecting people. And I think that was kind of reversed from 
where it should be. And I am glad to see that that has been 
reversed. Am I correct on that?
    Mr. Reid. You are correct. It is an equal priority. And 
just to add to the previous narrative and perhaps make it even 
more confusing, but the Marine Security Guards, again, we have 
an agreement, a memorandum of agreement between the 
Departments, they are under the direction of the Regional 
Security Officer. There is a different example of a day-to-day 
guidance and direction to that element. There is a very 
complicated dialogue about if there is an act of war that comes 
on top of that and how we manage that. But that example, they 
are under the direction of the ambassador through his Regional 
Security Officer by agreement between the two Departments for 
day-to-day embassy operations, which can rise to the point of 
riots and crises and other things. We have that system in place 
as well. The augmentation piece we are talking about people 
coming in is a bit of a different formulation. But they both 
exist.
    Mr. Nugent. I appreciated your response.
    I yield back.
    Mrs. Roby. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Madam Chair.
    Thank you, gentlemen. I appreciate taking lessons learned 
and putting some things into action. You know, there was 
requests from Benghazi for increased security earlier than the 
attack, like as soon as August, maybe even sooner, and you 
talked about risk assessments being done. So this request was 
made--there were requests made to the State Department. Was 
there a risk assessment done by the State Department before the 
attack when these requests were made for increased security, or 
an evaluation of the increased threats?
    Mr. Reid. Yeah, I apologize, but I don't know the details 
of exactly who or what or when was requested, and I have heard 
in these hearings other people comment, but I don't feel 
comfortable saying what they did. I believe and I have heard in 
hearings about additions and security enhancements, for 
instance, at the temporary mission facility, so I would assume 
there was assessments and requisitions and things happening, 
but I don't know the details.
    Dr. Wenstrup. That may be something we should ask the State 
Department to see if they did that. Thank you for that.
    Is there a protocol more in place today of handling 
requests for increased security that go through the State 
Department that will incorporate DOD's input to it?
    Mr. Reid. Yes, and it is the same process that exists 
broadly for any interagency request for support. We have 
received at least two, I could give you the details separately, 
formal requests for augmentation at diplomatic posts, and so 
there is a formal request process that goes from Department to 
Department and there is at that level, and then, obviously, the 
informal coordination that sorts out all of the details. 
Typically, receive a request, comes through, we already know it 
is coming because we work with these folks every day. We would 
assign that in terms of DOD to a combatant commander or an 
element of the force. They would link up with the customer, do 
an assessment, do a survey, figure out exactly what the details 
are, and then the Secretaries will agree, and off we go.
    Dr. Wenstrup. So, at this point, if there is a risk, both 
Departments would be involved, both State and DOD, and maybe 
that wasn't the case before?
    Mr. Reid. I would say it was the case before. What is 
different now is we address these more regularly at higher 
levels within our branches in our Departments, up to the, as I 
mentioned before, up to national security staff level.
    Dr. Wenstrup. And of course, in the process of coming up 
with lessons learned and taking actions, you review the 
incidents that took place and how you can make things better in 
the future. And that usually comes from an after-action review. 
Is there an after-action review that we may be able to see at 
some point in a better setting?
    Mr. Reid. The primary after-action review that--for us was 
the ARB [Accountability Review Board], and at the time, 
Secretary Panetta ensured that we were linked up with the 
Accountability Review Board. That is the more formal after-
action report that we participated in.
    Dr. Wenstrup. Was there after-action review done by the 
people involved with the incident, say, within 24 hours, or a 
week?
    Mr. Reid. At the military unit level, I think it is a 
matter of just military operations, and some of you know this, 
they have an after-action review process internally. And then 
there is a broader effort across, again, all of the Department 
in terms of lessons learned and, you know, we have lessons 
learned databases, and Web sites, and classified lessons 
learned. USSOCOM [United States Special Operations Command] has 
an entire effort to do joint lessons learned, and they are all 
promulgated and proliferated out to everybody.
    Dr. Wenstrup. I guess what I am asking is in the proper 
setting, would we have access to some of those reviews, 
especially the most early reviews?
    Mr. Reid. Sure. I mean, we can talk to specifics if there 
is something in particular you are asking for. If it is just 
more general, we could definitely follow up and talk about 
whatever has been asked. You know, we responded to many of the 
requests for documents, and we have people that do that that we 
could link up and figure out if there is any gaps.
    Dr. Wenstrup. Okay, thank you very much.
    General Roberson. If I could just add, you know, routinely, 
as a part of the chairman's program, we are still culling 
lessons learned from Iraq. We are still culling lessons learned 
from Afghanistan. This is a continual process that we go 
through, and so this, Benghazi results and all of that will be 
a part of a process that we will continue to review and learn 
from.
    Dr. Wenstrup. Thank you, gentlemen.
    I yield back.
    Mrs. Roby. Ms. Tsongas.
    Ms. Tsongas. Just as a follow-up, it is my understanding 
that Admiral Mullen said as part of the ARB process that he did 
look at all, whatever there might have been, that constituted 
an after-action review. So that--just to put that into the 
record.
    Thank you.
    Mrs. Roby. Okay, this part is adjourned, and if we would, 
votes are imminent. If we could please move to 2337, Members 
only, and we will begin the next part of this up there 
immediately.
    [Whereupon, at 5:04 p.m., the subcommittee proceeded to 
closed session.]



=======================================================================




                            A P P E N D I X

                           September 19, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 19, 2013

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 19, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER

    Mr. Reid. Based on information provided by the Under Secretary of 
Defense for Intelligence, overall, the Defense Intelligence Community 
continues to face challenges in acquiring linguists at the professional 
proficiency level. To better understand the challenge faced by the 
Department in managing linguists, it is important to discern the 
difference between speakers with tested capabilities and the language 
tasks to be performed.
    Language capabilities are not ``one size fit all''--for example, we 
cannot take Cryptologic Language Analysts skilled in passive language 
skills like listening and expect them to perform as HUMINT collectors, 
a mission that demands active language skills like speaking fluency. 
The Department is continuously balancing these language requirements in 
order to ensure that we not only increase the overall number of trained 
linguists, but we also best match language tested capabilities to 
mission needs. [See page 15.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
